STATUTORY APPENDIX

i
TABLE OF CONTENTS
47 U.S.C. § 227 ......................................................... 1a

1a
47 U.S.C. § 227
(a) Definitions
As used in this section—
(1) The term “automatic telephone dialing
system” means equipment which has the
capacity—
(A) to store or produce telephone numbers to
be called, using a random or sequential
number generator; and
(B) to dial such numbers.
(2) The term “established business relationship”,
for purposes only of subsection (b)(1)(C)(i), shall
have the meaning given the term in section
64.1200 of title 47, Code of Federal Regulations,
as in effect on January 1, 2003, except that—
(A) such term shall include a relationship
between a person or entity and a business
subscriber subject to the same terms
applicable under such section to a
relationship between a person or entity and a
residential subscriber; and
(B) an established business relationship
shall be subject to any time limitation
established pursuant to paragraph (2)(G)). 1
(3) The term “telephone facsimile machine”
means equipment which has the capacity (A) to
transcribe text or images, or both, from paper into
an electronic signal and to transmit that signal
So in original. Second closing parenthesis probably should not
appear.

1

2a
over a regular telephone line, or (B) to transcribe
text or images (or both) from an electronic signal
received over a regular telephone line onto paper.
(4) The term “telephone solicitation” means the
initiation of a telephone call or message for the
purpose of encouraging the purchase or rental of,
or investment in, property, goods, or services,
which is transmitted to any person, but such term
does not include a call or message (A) to any
person with that person’s prior express invitation
or permission, (B) to any person with whom the
caller has an established business relationship, or
(C) by a tax exempt nonprofit organization.
(5) The term “unsolicited advertisement” means
any material advertising the commercial
availability or quality of any property, goods, or
services which is transmitted to any person
without that person’s prior express invitation or
permission, in writing or otherwise.
(b) Restrictions on use of automated telephone
equipment
(1) Prohibitions
It shall be unlawful for any person within the
United States, or any person outside the United States
if the recipient is within the United States—
(A) to make any call (other than a call made
for emergency purposes or made with the
prior express consent of the called party)
using any automatic telephone dialing
system or an artificial or prerecorded voice—
(i) to any emergency telephone line
(including any “911” line and any

3a
emergency line of a hospital, medical
physician or service office, health care
facility, poison control center, or fire
protection or law enforcement agency);
(ii) to the telephone line of any guest
room or patient room of a hospital, health
care facility, elderly home, or similar
establishment; or
(iii) to any telephone number assigned to
a paging service, cellular telephone
service, specialized mobile radio service,
or other radio common carrier service, or
any service for which the called party is
charged for the call unless such call is
made solely to collect a debt owed to or
guaranteed by the United States;
(B) to initiate any telephone call to any
residential telephone line using an artificial
or prerecorded voice to deliver a message
without the prior express consent of the called
party, unless the call is initiated for
emergency purposes, is made solely pursuant
to the collection of a debt owed to or
guaranteed by the United States, or is
exempted by rule or order by the Commission
under paragraph (2)(B);
(C) to use any telephone facsimile machine,
computer, or other device to send, to a
telephone facsimile machine, an unsolicited
advertisement, unless—
(i) the unsolicited advertisement is
from a sender with an established
business relationship with the recipient;

4a
(ii) the sender obtained the number of
the
telephone
facsimile
machine
through—
(I) the voluntary communication of
such number, within the context of
such
established
business
relationship, from the recipient of
the unsolicited advertisement, or
(II) a directory, advertisement, or
site on the Internet to which the
recipient voluntarily agreed to make
available its facsimile number for
public distribution,
except that this clause shall not apply in
the case of an unsolicited advertisement
that is sent based on an established
business relationship with the recipient
that was in existence before July 9, 2005,
if the sender possessed the facsimile
machine number of the recipient before
July 9, 2005; and
(iii) the
unsolicited
advertisement
contains
a
notice
meeting
the
requirements under paragraph (2)(D),
except that the exception under clauses (i)
and (ii) shall not apply with respect to an
unsolicited advertisement sent to a telephone
facsimile machine by a sender to whom a
request has been made not to send future
unsolicited advertisements to such telephone
facsimile machine that complies with the
requirements under paragraph (2)(E); or

5a
(D) to use an automatic telephone dialing
system in such a way that two or more
telephone lines of a multi-line business are
engaged simultaneously.
(2) Regulations;
provisions

exemptions

and

other

The Commission shall prescribe regulations to
implement the requirements of this subsection. In
implementing the requirements of this subsection, the
Commission—
(A) shall consider prescribing regulations to
allow businesses to avoid receiving calls made
using an artificial or prerecorded voice to
which they have not given their prior express
consent;
(B) may, by rule or order, exempt from the
requirements of paragraph (1)(B) of this
subsection, subject to such conditions as the
Commission may prescribe—
(i) calls that are not made for a
commercial purpose; and
(ii) such classes or categories of calls
made for commercial purposes as the
Commission determines—
(I) will not adversely affect the
privacy rights that this section is
intended to protect; and
(II) do not include the transmission
of any unsolicited advertisement;
(C) may, by rule or order, exempt from the
requirements of paragraph (1)(A)(iii) of this

6a
subsection calls to a telephone number
assigned to a cellular telephone service that
are not charged to the called party, subject to
such conditions as the Commission may
prescribe as necessary in the interest of the
privacy rights this section is intended to
protect;
(D) shall provide that a notice contained in
an unsolicited advertisement complies with
the requirements under this subparagraph
only if—
(i) the notice is clear and conspicuous
and on the first page of the unsolicited
advertisement;
(ii) the notice states that the recipient
may make a request to the sender of the
unsolicited advertisement not to send
any future unsolicited advertisements to
a telephone facsimile machine or
machines and that failure to comply,
within the shortest reasonable time, as
determined by the Commission, with
such a request meeting the requirements
under subparagraph (E) is unlawful;
(iii) the
notice
requirements for
subparagraph (E);

sets
forth
the
a request under

(iv) the notice includes—
(I) a domestic contact telephone
and facsimile machine number for
the recipient to transmit such a
request to the sender; and

7a
(II) a cost-free mechanism for a
recipient to transmit a request
pursuant to such notice to the sender
of the unsolicited advertisement; the
Commission shall by rule require the
sender to provide such a mechanism
and may, in the discretion of the
Commission and subject to such
conditions as the Commission may
prescribe, exempt certain classes of
small business senders, but only if
the Commission determines that the
costs to such class are unduly
burdensome given the revenues
generated by such small businesses;
(v) the telephone and facsimile machine
numbers and the cost-free mechanism set
forth pursuant to clause (iv) permit an
individual or business to make such a
request at any time on any day of the
week; and
(vi) the notice complies with
requirements of subsection (d);

the

(E) shall provide, by rule, that a request not
to send future unsolicited advertisements to
a telephone facsimile machine complies with
the requirements under this subparagraph
only if—
(i) the request identifies the telephone
number or numbers of the telephone
facsimile machine or machines to which
the request relates;

8a
(ii) the request is made to the telephone
or facsimile number of the sender of such
an unsolicited advertisement provided
pursuant to subparagraph (D)(iv) or by
any other method of communication as
determined by the Commission; and
(iii) the person making the request has
not, subsequent to such request, provided
express invitation or permission to the
sender, in writing or otherwise, to send
such advertisements to such person at
such telephone facsimile machine;
(F) may, in the discretion of the Commission
and subject to such conditions as the
Commission
may
prescribe,
allow
professional or trade associations that are
tax-exempt nonprofit organizations to send
unsolicited advertisements to their members
in furtherance of the association’s tax-exempt
purpose that do not contain the notice
required by paragraph (1)(C)(iii), except that
the Commission may take action under this
subparagraph only—
(i) by regulation issued after public
notice and opportunity for public
comment; and
(ii) if the Commission determines that
such notice required by paragraph
(1)(C)(iii) is not necessary to protect the
ability of the members of such
associations to stop such associations
from sending any future unsolicited
advertisements;

9a
(G)(i)
may, consistent with clause (ii), limit
the duration of the existence of an
established
business
relationship,
however, before establishing any such
limits, the Commission shall—
(I) determine whether the existence
of the exception under paragraph
(1)(C) relating to an established
business relationship has resulted in
a significant number of complaints to
the Commission regarding the
sending
of
unsolicited
advertisements
to
telephone
facsimile machines;
(II) determine whether a significant
number of any such complaints
involve unsolicited advertisements
that were sent on the basis of an
established business relationship
that was longer in duration than the
Commission believes is consistent
with the reasonable expectations of
consumers;
(III) evaluate the costs to senders of
demonstrating the existence of an
established business relationship
within a specified period of time and
the benefits to recipients of
establishing a limitation on such
established business relationship;
and

10a
(IV) determine whether with respect
to small businesses, the costs would
not be unduly burdensome; and
(ii) may not commence a proceeding to
determine whether to limit the duration
of the existence of an established
business
relationship
before
the
expiration of the 3-month period that
begins on July 9, 2005; and
(H) may restrict or limit the number and
duration of calls made to a telephone number
assigned to a cellular telephone service to
collect a debt owed to or guaranteed by the
United States.
(3) Private right of action
A person or entity may, if otherwise permitted by
the laws or rules of court of a State, bring in an
appropriate court of that State—
(A) an action based on a violation of this
subsection or the regulations prescribed
under this subsection to enjoin such violation,
(B) an action to recover for actual monetary
loss from such a violation, or to receive $500
in damages for each such violation, whichever
is greater, or
(C) both such actions.
If the court finds that the defendant willfully or
knowingly violated this subsection or the regulations
prescribed under this subsection, the court may, in its
discretion, increase the amount of the award to an
amount equal to not more than 3 times the amount
available under subparagraph (B) of this paragraph.

11a
(c) Protection of subscriber privacy rights
(1) Rulemaking proceeding required
Within 120 days after December 20, 1991, the
Commission shall initiate a rulemaking proceeding
concerning the need to protect residential telephone
subscribers’ privacy rights to avoid receiving
telephone solicitations to which they object. The
proceeding shall—
(A) compare and evaluate alternative
methods and procedures (including the use of
electronic databases, telephone network
technologies, special directory markings,
industry-based or company-specific “do not
call” systems, and any other alternatives,
individually or in combination) for their
effectiveness in protecting such privacy
rights, and in terms of their cost and other
advantages and disadvantages;
(B) evaluate the categories of public and
private entities that would have the capacity
to establish and administer such methods
and procedures;
(C) consider whether different methods and
procedures may apply for local telephone
solicitations, such as local telephone
solicitations of small businesses or holders of
second class mail permits;
(D) consider whether there is a need for
additional Commission authority to further
restrict telephone solicitations, including
those calls exempted under subsection (a)(3)
of this section, and, if such a finding is made

12a
and supported by the record, propose specific
restrictions to the Congress; and
(E) develop
proposed
regulations
to
implement the methods and procedures that
the Commission determines are most
effective and efficient to accomplish the
purposes of this section.
(2) Regulations
Not later than 9 months after December 20, 1991,
the Commission shall conclude the rulemaking
proceeding initiated under paragraph (1) and shall
prescribe regulations to implement methods and
procedures for protecting the privacy rights described
in such paragraph in an efficient, effective, and
economic manner and without the imposition of any
additional charge to telephone subscribers.
(3) Use of database permitted
The regulations required by paragraph (2) may
require the establishment and operation of a single
national database to compile a list of telephone
numbers of residential subscribers who object to
receiving telephone solicitations, and to make that
compiled list and parts thereof available for purchase.
If the Commission determines to require such a
database, such regulations shall—
(A) specify a method by which the
Commission will select an entity to
administer such database;
(B) require each common carrier providing
telephone exchange service, in accordance
with
regulations
prescribed
by
the
Commission, to inform subscribers for

13a
telephone exchange service of the opportunity
to provide notification, in accordance with
regulations
established
under
this
paragraph, that such subscriber objects to
receiving telephone solicitations;
(C) specify the methods by which each
telephone subscriber shall be informed, by
the common carrier that provides local
exchange service to that subscriber, of (i) the
subscriber’s right to give or revoke a
notification
of
an
objection
under
subparagraph (A), and (ii) the methods by
which such right may be exercised by the
subscriber;
(D) specify the methods by which such
objections shall be collected and added to the
database;
(E) prohibit any residential subscriber from
being charged for giving or revoking such
notification or for being included in a
database compiled under this section;
(F) prohibit any person from making or
transmitting a telephone solicitation to the
telephone number of any subscriber included
in such database;
(G) specify (i) the methods by which any
person desiring to make or transmit
telephone solicitations will obtain access to
the database, by area code or local exchange
prefix, as required to avoid calling the
telephone numbers of subscribers included in
such database; and (ii) the costs to be
recovered from such persons;

14a
(H) specify the methods for recovering, from
persons accessing such database, the costs
involved in identifying, collecting, updating,
disseminating, and selling, and other
activities relating to, the operations of the
database that are incurred by the entities
carrying out those activities;
(I) specify the frequency with which such
database will be updated and specify the
method by which such updating will take
effect for purposes of compliance with the
regulations prescribed under this subsection;
(J) be designed to enable States to use the
database mechanism selected by the
Commission for purposes of administering or
enforcing State law;
(K) prohibit the use of such database for any
purpose other than compliance with the
requirements of this section and any such
State law and specify methods for protection
of the privacy rights of persons whose
numbers are included in such database; and
(L) require each common carrier providing
services to any person for the purpose of
making telephone solicitations to notify such
person of the requirements of this section and
the regulations thereunder.
(4) Considerations
database method

required

for

use

of

If the Commission determines to require the
database mechanism described in paragraph (3), the
Commission shall—

15a
(A) in developing procedures for gaining
access to the database, consider the different
needs of telemarketers conducting business
on a national, regional, State, or local level;
(B) develop a fee schedule or price structure
for recouping the cost of such database that
recognizes such differences and—
(i) reflect the relative costs of providing
a national, regional, State, or local list of
phone numbers of subscribers who object
to receiving telephone solicitations;
(ii) reflect the relative costs of providing
such lists on paper or electronic media;
and
(iii) not place an unreasonable financial
burden on small businesses; and
(C) consider (i) whether the needs of
telemarketers operating on a local basis could
be met through special markings of area
white pages directories, and (ii) if such
directories are needed as an adjunct to
database lists prepared by area code and local
exchange prefix.
(5) Private right of action
A person who has received more than one
telephone call within any 12-month period by or on
behalf of the same entity in violation of the regulations
prescribed under this subsection may, if otherwise
permitted by the laws or rules of court of a State bring
in an appropriate court of that State—

16a
(A) an action based on a violation of the
regulations prescribed under this subsection
to enjoin such violation,
(B) an action to recover for actual monetary
loss from such a violation, or to receive up to
$500 in damages for each such violation,
whichever is greater, or
(C) both such actions.
It shall be an affirmative defense in any action
brought under this paragraph that the defendant has
established and implemented, with due care,
reasonable practices and procedures to effectively
prevent telephone solicitations in violation of the
regulations prescribed under this subsection. If the
court finds that the defendant willfully or knowingly
violated the regulations prescribed under this
subsection, the court may, in its discretion, increase
the amount of the award to an amount equal to not
more than 3 times the amount available under
subparagraph (B) of this paragraph.
(6) Relation to subsection (b)
The provisions of this subsection shall not be
construed to permit a communication prohibited by
subsection (b) of this section.
(d) Technical and procedural standards
(1) Prohibition
It shall be unlawful for any person within the
United States—
(A) to initiate any communication using a
telephone facsimile machine, or to make any
telephone call using any automatic telephone

17a
dialing system, that does not comply with the
technical
and
procedural
standards
prescribed under this subsection, or to use
any telephone facsimile machine or
automatic telephone dialing system in a
manner that does not comply with such
standards; or
(B) to use a computer or other electronic
device to send any message via a telephone
facsimile machine unless such person clearly
marks, in a margin at the top or bottom of
each transmitted page of the message or on
the first page of the transmission, the date
and time it is sent and an identification of the
business, other entity, or individual sending
the message and the telephone number of the
sending machine or of such business, other
entity, or individual.
(2) Telephone facsimile machines
The Commission shall revise the regulations
setting technical and procedural standards for
telephone facsimile machines to require that any such
machine which is manufactured after one year after
December 20, 1991, clearly marks, in a margin at the
top or bottom of each transmitted page or on the first
page of each transmission, the date and time sent, an
identification of the business, other entity, or
individual sending the message, and the telephone
number of the sending machine or of such business,
other entity, or individual.
(3) Artificial or prerecorded voice systems
The Commission shall prescribe technical and
procedural standards for systems that are used to

18a
transmit any artificial or prerecorded voice message
via telephone. Such standards shall require that—
(A) all artificial or prerecorded telephone
messages (i) shall, at the beginning of the
message, state clearly the identity of the
business, individual, or other entity initiating
the call, and (ii) shall, during or after the
message, state clearly the telephone number
or address of such business, other entity, or
individual; and
(B) any such system will automatically
release the called party’s line within 5
seconds of the time notification is transmitted
to the system that the called party has hung
up, to allow the called party’s line to be used
to make or receive other calls.
(e) Prohibition on provision of
caller identification information

inaccurate

(1) In general
It shall be unlawful for any person within the
United
States,
in
connection
with
any
telecommunications service or IP-enabled voice
service, to cause any caller identification service to
knowingly transmit misleading or inaccurate caller
identification information with the intent to defraud,
cause harm, or wrongfully obtain anything of value,
unless such transmission is exempted pursuant to
paragraph (3)(B).
(2) Protection
for
blocking
identification information

caller

Nothing in this subsection may be construed to
prevent or restrict any person from blocking the

19a
capability of any caller identification service to
transmit caller identification information.
(3) Regulations
(A) In general
Not later than 6 months after December 22, 2010,
the Commission shall prescribe regulations to
implement this subsection.
(B) Content of regulations
(i) In general
The regulations required under subparagraph (A)
shall include such exemptions from the prohibition
under paragraph (1) as the Commission determines is
appropriate.
(ii) Specific exemption for law
enforcement agencies or court
orders
The regulations required under subparagraph (A)
shall exempt from the prohibition under paragraph (1)
transmissions in connection with—
(I) any authorized activity of a law
enforcement agency; or
(II) a court order that specifically
authorizes the use of caller
identification manipulation.
(4) Repealed
Pub.L. 115-141, Div. P, Title IV, § 402(i)(3), Mar.
23, 2018, 132 Stat. 1089

20a
(5) Penalties
(A) Civil forfeiture
(i) In general
Any person that is determined by the
Commission, in accordance with paragraphs (3) and
(4) of section 503(b) of this title, to have violated this
subsection shall be liable to the United States for a
forfeiture penalty. A forfeiture penalty under this
paragraph shall be in addition to any other penalty
provided for by this chapter. The amount of the
forfeiture penalty determined under this paragraph
shall not exceed $10,000 for each violation, or 3 times
that amount for each day of a continuing violation,
except that the amount assessed for any continuing
violation shall not exceed a total of $1,000,000 for any
single act or failure to act.
(ii) Recovery
Any forfeiture penalty determined under clause
(i) shall be recoverable pursuant to section 504(a) of
this title.
(iii) Procedure
No forfeiture liability shall be determined under
clause (i) against any person unless such person
receives the notice required by section 503(b)(3) of this
title or section 503(b)(4) of this title.
(iv) 2-year statute of limitations
No forfeiture penalty shall be determined or
imposed against any person under clause (i) if the
violation charged occurred more than 2 years prior to
the date of issuance of the required notice or notice or
apparent liability.

21a
(B) Criminal fine
Any person who willfully and knowingly violates
this subsection shall upon conviction thereof be fined
not more than $10,000 for each violation, or 3 times
that amount for each day of a continuing violation, in
lieu of the fine provided by section 501 of this title for
such a violation. This subparagraph does not
supersede the provisions of section 501 of this title
relating to imprisonment or the imposition of a
penalty of both fine and imprisonment.
(6) Enforcement by States
(A) In general
The chief legal officer of a State, or any other State
officer authorized by law to bring actions on behalf of
the residents of a State, may bring a civil action, as
parens patriae, on behalf of the residents of that State
in an appropriate district court of the United States to
enforce this subsection or to impose the civil penalties
for violation of this subsection, whenever the chief
legal officer or other State officer has reason to believe
that the interests of the residents of the State have
been or are being threatened or adversely affected by
a violation of this subsection or a regulation under this
subsection.
(B) Notice
The chief legal officer or other State officer shall
serve written notice on the Commission of any civil
action under subparagraph (A) prior to initiating such
civil action. The notice shall include a copy of the
complaint to be filed to initiate such civil action, except
that if it is not feasible for the State to provide such

22a
prior notice, the State shall provide such notice
immediately upon instituting such civil action.
(C) Authority to intervene
Upon receiving the notice required by
subparagraph (B), the Commission shall have the
right—
(i) to intervene in the action;
(ii) upon so intervening, to be heard on
all matters arising therein; and
(iii) to file petitions for appeal.
(D) Construction
For purposes of bringing any civil action under
subparagraph (A), nothing in this paragraph shall
prevent the chief legal officer or other State officer
from exercising the powers conferred on that officer by
the laws of such State to conduct investigations or to
administer oaths or affirmations or to compel the
attendance of witnesses or the production of
documentary and other evidence.
(E) Venue; service or process
(i) Venue
An action brought under subparagraph (A) shall
be brought in a district court of the United States that
meets applicable requirements relating to venue
under section 1391 of title 28.
(ii) Service of process
In an action brought under subparagraph (A)—
(I) process may be served without
regard to the territorial limits of the

23a
district or of the State in which the
action is instituted; and
(II) a person who participated in an
alleged violation that is being
litigated in the civil action may be
joined in the civil action without
regard to the residence of the person.
(7) Effect on other laws
This subsection does not prohibit any lawfully
authorized investigative, protective, or intelligence
activity of a law enforcement agency of the United
States, a State, or a political subdivision of a State, or
of an intelligence agency of the United States.
(8) Definitions
For purposes of this subsection:
(A) Caller identification information
The term “caller identification information”
means information provided by a caller identification
service regarding the telephone number of, or other
information regarding the origination of, a call made
using a telecommunications service or IP-enabled
voice service.
(B) Caller identification service
The term “caller identification service” means any
service or device designed to provide the user of the
service or device with the telephone number of, or
other information regarding the origination of, a call
made using a telecommunications service or IPenabled voice service. Such term includes automatic
number identification services.

24a
(C) IP-enabled voice service
The term “IP-enabled voice service” has the
meaning given that term by section 9.3 of the
Commission’s regulations (47 C.F.R. 9.3), as those
regulations may be amended by the Commission from
time to time.
(9) Limitation
Notwithstanding any other provision of this
section, subsection (f) shall not apply to this
subsection or to the regulations under this subsection.
(f) Effect on State law
(1) State law not preempted
Except for the standards prescribed under
subsection (d) and subject to paragraph (2) of this
subsection, nothing in this section or in the
regulations prescribed under this section shall
preempt any State law that imposes more restrictive
intrastate requirements or regulations on, or which
prohibits—
(A) the use of telephone facsimile machines or
other electronic devices to send unsolicited
advertisements;
(B) the use of automatic telephone dialing
systems;
(C) the use of artificial or prerecorded voice
messages; or
(D) the making of telephone solicitations.
(2) State use of databases
If, pursuant to subsection (c)(3), the Commission
requires the establishment of a single national
database of telephone numbers of subscribers who

25a
object to receiving telephone solicitations, a State or
local authority may not, in its regulation of telephone
solicitations, require the use of any database, list, or
listing system that does not include the part of such
single national database that relates to such State.
(g) Actions by States
(1) Authority of States
Whenever the attorney general of a State, or an
official or agency designated by a State, has reason to
believe that any person has engaged or is engaging in
a pattern or practice of telephone calls or other
transmissions to residents of that State in violation of
this section or the regulations prescribed under this
section, the State may bring a civil action on behalf of
its residents to enjoin such calls, an action to recover
for actual monetary loss or receive $500 in damages
for each violation, or both such actions. If the court
finds the defendant willfully or knowingly violated
such regulations, the court may, in its discretion,
increase the amount of the award to an amount equal
to not more than 3 times the amount available under
the preceding sentence.
(2) Exclusive jurisdiction of Federal courts
The district courts of the United States, the
United States courts of any territory, and the District
Court of the United States for the District of Columbia
shall have exclusive jurisdiction over all civil actions
brought under this subsection. Upon proper
application, such courts shall also have jurisdiction to
issue writs of mandamus, or orders affording like
relief, commanding the defendant to comply with the
provisions of this section or regulations prescribed
under this section, including the requirement that the

26a
defendant take such action as is necessary to remove
the danger of such violation. Upon a proper showing,
a permanent or temporary injunction or restraining
order shall be granted without bond.
(3) Rights of Commission
The State shall serve prior written notice of any
such civil action upon the Commission and provide the
Commission with a copy of its complaint, except in any
case where such prior notice is not feasible, in which
case the State shall serve such notice immediately
upon instituting such action. The Commission shall
have the right (A) to intervene in the action, (B) upon
so intervening, to be heard on all matters arising
therein, and (C) to file petitions for appeal.
(4) Venue; service of process
Any civil action brought under this subsection in
a district court of the United States may be brought in
the district wherein the defendant is found or is an
inhabitant or transacts business or wherein the
violation occurred or is occurring, and process in such
cases may be served in any district in which the
defendant is an inhabitant or where the defendant
may be found.
(5) Investigatory powers
For purposes of bringing any civil action under
this subsection, nothing in this section shall prevent
the attorney general of a State, or an official or agency
designated by a State, from exercising the powers
conferred on the attorney general or such official by
the laws of such State to conduct investigations or to
administer oaths or affirmations or to compel the

27a
attendance of witnesses or the
documentary and other evidence.

production

of

(6) Effect on State court proceedings
Nothing contained in this subsection shall be
construed to prohibit an authorized State official from
proceeding in State court on the basis of an alleged
violation of any general civil or criminal statute of
such State.
(7) Limitation
Whenever the Commission has instituted a civil
action for violation of regulations prescribed under
this section, no State may, during the pendency of
such action instituted by the Commission,
subsequently institute a civil action against any
defendant named in the Commission’s complaint for
any violation as alleged in the Commission’s
complaint.
(8) “Attorney general” defined
As used in this subsection, the term “attorney
general” means the chief legal officer of a State.
(h) Junk fax enforcement report
The Commission shall submit an annual report to
Congress regarding the enforcement during the past
year of the provisions of this section relating to
sending of unsolicited advertisements to telephone
facsimile machines, which report shall include—
(1) the number of complaints received by the
Commission during such year alleging that a
consumer received an unsolicited advertisement
via telephone facsimile machine in violation of the
Commission’s rules;

28a
(2) the number of citations issued by the
Commission pursuant to section 503 of this title
during the year to enforce any law, regulation, or
policy relating to sending of unsolicited
advertisements to telephone facsimile machines;
(3) the number of notices of apparent liability
issued by the Commission pursuant to section 503
of this title during the year to enforce any law,
regulation, or policy relating to sending of
unsolicited advertisements to telephone facsimile
machines;
(4) for each notice referred to in paragraph (3)—
(A) the amount of the proposed forfeiture
penalty involved;
(B) the person to whom the notice was issued;
(C) the length of time between the date on
which the complaint was filed and the date on
which the notice was issued; and
(D) the status of the proceeding;
(5) the number of final orders imposing forfeiture
penalties issued pursuant to section 503 of this
title during the year to enforce any law,
regulation, or policy relating to sending of
unsolicited advertisements to telephone facsimile
machines;
(6) for each forfeiture order referred to in
paragraph (5)—
(A) the amount of the penalty imposed by the
order;
(B) the person to whom the order was issued;

29a
(C) whether the forfeiture penalty has been
paid; and
(D) the amount paid;
(7) for each case in which a person has failed to
pay a forfeiture penalty imposed by such a final
order, whether the Commission referred such
matter for recovery of the penalty; and
(8) for each case in which the Commission referred
such an order for recovery—
(A) the number of days from the date the
Commission issued such order to the date of
such referral;
(B) whether an action has been commenced to
recover the penalty, and if so, the number of
days from the date the Commission referred
such order for recovery to the date of such
commencement; and
(C) whether the recovery action resulted in
collection of any amount, and if so, the
amount collected.

